                                                          4


            Department of HeaIth and Human Services

                    OFFICE OF
               INSPECTOR GENERAL




        ENCOURAGING PHYSICIANS TO USE
              PAPERLESS CLAIMS




                                                      I




I                             OEI-01-94-00230”
    ——___
               EXECUTIVE                             SUMMARY

 PURPOSE

To help the Health Care Financing Administration      (HCFA) increase acceptance     of
paperless claims among physicians.

BACKGROUND

From 1991 to 1994 the percent of assigned claims submitted by physicians to Medicare in
paperIess formats rose from 40 to 73 percent, the highest rate among major payers. During
the same time, the percent of physicians authorized to submit paperless claims rose from
29 to 41 percent. The HCFA’S leadership drove much of this increase, but market forces
fostering consolidation of physician practices in managed care settings contributed.

In this inspection we focus on physicians still submitting paper claims for Medicare
reimbursement.    Through a mail survey of a random sample of such physicians, we
examined the extent of their interest in converting to paperless claims and the kind of
concerns they have about converting.

FINDINGS

SMy-jive percent of physicians who now submit Medicare c[aims on paper indicate a
high or moderate level of interest in using paperless claims.

Physicians with a high or moderate level of interest, as compared with those expressing      a
low level or no interest in paperless claims, are significantly more likely to:

  �    be younger (44.9 years of age on average v. 50.9): and
  �    receive contacts from sales or professional relations staffs, including Medicare,
       offering a system for paperless claims (an average 2.83 in the past year v. 1.59).

Physicians who responded to our survey with a high or moderate level of interest, as
compared with those expressing a low level or no interest. were notably more likely to:

 �     use a computer in the office (74 v. 43 percent); and
 �     be Medicare participating providers (69 v. 51 percent),

but these last two differences are not statistically significant for our sample size and design.

Physicians with a high or moderate level of interest in using paperless claims do not differ
significantly from their low or no interest peers with regard to the percent of their income
derived from Medicare, the average number of claims submitted to Medicare, or their
specialty practice.



                                               1
 Eighty-three percent of physicians who submit Medicare c[aims on paper cite three or
 more concerns about using paperless ciaims.

 Technical Complexity. Major examples noted were: customizing data systems to
 individual practice; obtaining compatible billing software; and developing the capacity to
 include special narratives on claims. Cited by 89 percent of physicians with high to
 moderate interest in paperless claims, and by 87 percent of those with low or no interest.

Costs. Includes hardware or software costs and training staff to process claims by
computer. Indicated by 78 percent of physicians with high or moderate interest in
paperless claims; by 82 percent of those with low or no interest.

Information Gaps. Centers around two matters: difficulties in checking status of paperless
claims and access to documentation for the paperless claim process. Noted by 83 percent
of physicians in the high or moderate interest category, and by 64 percent in the low or no
interest category.

Medicare     Policies. Reflects misunderstandings about limitations on use of paperless
claims by    some physicians, and about capability for making edits. Mentioned by
71 percent    of physicians with high or moderate interest and by 59 percent of those with
low or no    interest.

Personal Preferences. Includes factors such as age, discomfort with the computer,
satisfaction with things as they are, difficulties with carrier and vendor staffs, or preference
for different computer systems. Cited by 56 percent of physicians expressing a high or
moderate interest in paperless claims; by 74 percent of those expressing low or no interest.

RECOMMENDATIONS

We conclude that, through extended outreach, HCFA could influence many of the
physicians still filing paper claims to switch voluntarily to paperless systems. At the same
time, we recognize that not ail of these physicians are likely to accept paperless claims and
that HCFA needs to begin developing a policy framework that goes beyond expanded
outreach, as a way of preparing for the day when paperless claims become the norm.

In addition, we recognize that physicians will have increased incentive to switch to
paperless claims as formats for electronic billing become increasingly standardized
throughout the health care industry. A similar impact will follow from increased use of
one-stop shopping, where insurers electronically route claims to other payers, and other
techniques that serve to make the payment process more transparent to physicians.

The HCFA silouid lead a targeted outreach effort to encourage vo[untary conversion to
paperless Medicare claim j71ing by physicians who now submit claims on paper and who
have a moderate to high level of interest in making the switch.




                                               ii
If the physicians who express a high or moderate level of interest in using paperless claims
actually made the switch:

  �      the Medicare administrative cost savings would be in a range between $22 million-      ­
         and $81 million annually; and
  �      the volume of assigned paper claims Medicare receives from physicians would be
         reduced from 126 million to 45 million annually.

As part of its extended outreach effort HCFA could:

     �   Send informational brochures with a return card to request additional information.

     �   Establish a 1-800 number for information concerning paperless claims.

     F   Conduct targeted mailings to Medicare participating physicians.

     �   Furnish information with every new provider number or address change.


Physicians who, through these contacts, express interest in making the switch to
paperless claims can be further persuaded by such efforts as:

     �   Convene target physicians (and/or their office representatives) in groups with their
         peers (and/or their representatives) who have alreacFy switched to paperless claims.
     �   Send informational materials specifically addressing concerns about technical
         complexity, costs, information gaps, and Medicare policies.
     �   Propose paperless claim submission as the normal choice with each new provider
         number assignment or change.

The HCFA should begin to plan now for the policy changes that will become necessary
to achieve an almost completely paperless environment for processing Medicare claims.

The HCFA also must address how in the years ahead it will approach those physicians who
continue to have little or no interest in paperless claims. Here, again, to reflect the scope
of the opportunity, we note that if the physicians who express little or no interest all made
the switch, then:

 �	      the additional Medicare administrative cost savings would be in a range between
         $12 million and $45 million annually, for a combined savings range between
         $34 million and $126 million annually; and
 �       paper claims volume would fall to zero.

Among the options available are:

  �      Target a date when paperless claims submission will become a condition for
         Medicare participating physician status.
  b      Target a somewhat later date when all physicians will be mandated to submit
         paperless claims.
  F      Continue to accept paper claims directly into Medicare, but impose a filing fee to
         cover the incremental cost of doing so.


                                               . ..
                                               111
AGENCY     COIWMENTS

We sought comments on the draft report from HCFA. The HCFA concurred with both of
our recommendations. We include the fill text of HCFA’S comments as appendix D.

In comments on our first recommendation, that it lead a targeted outreach effort to
encourage voluntary conversion to electronic billing, HCFA noted that it offers positive
incentives such as faster payments and free software. It has created a national standard
enrollment form, and proactively participates in groups developing industry-wide standards.
It also described ongoing efforts to streamline coding and data collection.

In comments on our second recommendation, that it plan now for policy changes necessary
in a paperless environment, HCFA stated that it will look to create incentives for providers
to abandon paper claims whenever possible.

We appreciate HCFA’s concurrence with our recommendations        and its continuing
initiatives to achieve the benejts of paperless claims.




                                             iv
                            TABLE                 OF’ CONTENTS

                                                                                                               PAGE


EXECUTIVE              SUMMARY


INTRODUCTION                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1


FINDINGS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


     �   Reservoir    of Physician Interest in Paperless Claims            . . . . . . . . . . . . . . . . . . .      5


     �   Widespread      Physician Concern About Paperless Claims                . . . . . . . . . . . . . . . .      7


RECOMMENDATIONS                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


     �   HCFA Should Reach Out to Encourage Voluntary Conversion                         . . . . . . . . . . . . 10


     � HCFAShould           Plan Now for A Paperless Future..              . . . . . . . . . . . . . . . . . ..11


AGENCY          COMMENTS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..13


APPENDICES


A: Sampling and Analysis Methods.                   . . . . . . . . . . . . . . . . . . . . . . . . . . . ..       A-1


B: Survey Questions and Answers                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..       B-l


C:       Nonresponse      Analysis    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..       C-1


D: Agency Comments                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..    D-l


E:       Endnotes     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..       E-1

                           INTRODUCTION

PURPOSE

To help the Health Care Financing Administration     increase acceptance of paperless claims
among physicians.

BACKGROUND

Medicine is a health insurance program for people age 65 or older and for certain disabled
people.’ Since it was enacted in 1965 Medicare has helped to pay for hospital (Part A)
and for physician and other medical (Part B) services and supplies used by enrollees, who
number about 38 milIion today.2

The Medicare program is run by the Health Care Financing Administration (HCFA), an
operating division of the U.S. Department of Health and Human Services (HHS.) For
most people Medicare pays for covered health care after the enrollee incurs an expense, in
response to a bill or claim submitted by the provider to one of the insurance companies
that contract to process Medicare claims. By 1997, HCFA expects, Medicare contractors
will process over 700 million Part B claims annually.s

The cormactors who process claims submitted to Medicare by physicians are called
“carriers.” Since only a minority of enrollees are in capitated plans today, most physicians
must submit a separate claim for each enrollee and often for each patient encounter.
Following the conventional business practice at the time Medicare was enacted, these
claims were traditionally written (or typewritten) on paper and submitted through the mails.

But mo~ing, processing, and storing billions of pieces of paper is costly and slow. With
the coming of standardized business computer systems and widespread efficient
telecommunications,    cheaper and more effective alternatives to paper claims became
availabie.d The HCFA, recognizing Medicare’s role as a leader in health care information
management, very early started planning to migrate its enormous volume of paper claims
into an era of electronic commerce.
                                                                     Figure1
Building upon its experiences at meetings of the          ASSIGNED PHYSICIAN CLAIMS
Workgroup for Electronic Data Interchange                            1994
                                                                                        TYPE OF CIAIM
                                                           332 yimiir=
(wEDIl.’ in late 1992 HCFA set goals for all
                                                            (7   %)
                                                                                          � p-
contractors in the rates of provider acceptance of
                                                             r                  1
                                                                                          � p-
paperless claims.b By 1994, for example, a solid
73-percent majority of assigned physician claims
were paperless (figure 1), up from 40 percent in                                        Ilion
1991.7                                                                                  )
                                                         SOURCE Carrier Workload Raports, HCFA-158S




                                             1

     The carriers achieved this substantial degree of usage of paperless claims in a relatively
     short time by focusing their efforts on larger and more technically sophisticated submitters
     of claims. Medicare participating physicians accounted for 85 percent of the assigned
     physician claims submitted on paper during 1994, and for 72 percent of all assigned claims
     submitted on paper during 1994 by all providers.

     h December       1994, by contrast, only a minority of physician providers were authorized to
                       Figure 2
                                                       use paperless claims (figure 2.) One carrier
           PHYSICIAN PROVIDERS                         presents  an extreme example, reporting more than
                 December 1994                         80 percent of its physician claims paperless, with
                                      ~AP&~;&M
                                                       these coming from just 16 percent of the physician
         m,                                            providers in the service area. The HCFA’S efforts
                                     f--j Paperless   to encourage physician use of paperless claims
                               �          m=          have   succeeded to a much greater extent on a
                                                      claim basis than on a provider basis. But, on
                                                      either basis, the rate of increase in physician use of
 ~   SOURCE: OIG Survey of Canlers, Mar-Apr 1995      paperless claims appears to have slowed or stopped
 I                                                  1
                                                      in 1995, following substantial gains from 1992
                                                      through 1994.7

Paperless or electronic media claims (EMC) make the most sense as a coherent part of a
unified process for electronic data interchange (EDI) between physicians (as providers of
health care service) on the one hand and Medicare or other insurers (as third party payers
for health care services) on the other. Typically such a process provides electronic
remittance advice and electronic funds transfer (EFT). Optionally it may provide payment
integration across many payers and data integration with the physician’s office records
management systems, for both accounting and professional information.

Two recent reports by the HHS Office of Inspector General (OIG) consider physician use
of paperless claims for billing Medicare within the larger context of HCFA’s efforts to
promote all the features of EDI.

In the March 1994 report. Electronic Data Interchange and Paperless Processing: issues
and Challenges. OEI- 12-93-00080. the OIG discussed at length emerging issues related to
expansion of HCFA’s use of various aspects of electronic data interchange. With regard to
incentives and barriers for getting providers (especially small providers) to buy into a
paperless processing system, the OIG noted simple resistance to change, additional costs of
converting, and lack of standard data sets.

[n a final report being issued simultaneously with this one, Review qf’ Medicare Providers
and Electronic Claims Processing, .4-05 -94-00039, among the issues discussed by the OIG
is conversion of hard copy providers to paperless claims. The OIG found that many paper
billers in that sample had a great deal of interest in converting (43 out of 95 were
“interested”). Others continued to resist because of costs or objections to the technology.
That study included Part A and Part B providers. It was based on field work conducted in
Illinois, Indiana. and Ohio. In that study the OIG found, as we do in this report, that


                                                     2

  physician concerns about paperless claims can reflect misunderstandings    of Medicare
  policies and of the capabilities of paperless claims systems.

   In this study we focus narrowly on paperless claims submittal as the necess~   first step in
  migration to a fully electronic system. More specifically, we focus on the concerns of
  physicians who do not now use paperless claims and on their level of interest in switching.
  Physicians submitted 87 percent of all the paper claims carriers received in 1994. As a
  group, physicians are likely to share a common set of concerns about paperless claims that
  may differ from the concerns of nonphysician practitioners and other suppliers of medical
  items and services.

 The time may be here when HCFA needs to reach out to physicians who do not yet submit
 paperless claims and encourage them to do so even more strongly than ithas in the past.
 The HCFA intends that the Medicare Transaction System (MTS), which it is now building
 and expects to implement fufly by 1999, will include a single, unified. paperless claims
 processing systems   If 59 percent of physicians continue to submit 27 percent of Medicare
 claims on paper, many of the efficiencies planned for MTS will be put in jeopardy.

 METHODOLOGY

 We surveyed by mail a random sample of physicians who do not now use paperless claims

 for Medicare. We selected the sample in two stages, first by selecting a random sample of

 8 of the 29 geographic carriers that process physicians’ Medicare claims, then by selecting

a random sample of about 100 physician provider numbers for each of the 8 carriers. In

evaluating the survey results, we applied standard statistical formulas to account for the

two-stage sampling.    We give a more detailed description of sample selection and analysis

in appendix A.


After eliminating duplicates, we mailed each selected physician a four-page questionnaire

designed to measure the breadth and depth of their concerns about paperless claims and

their level of interest in switching. At HCFA’S suggestion we included questions about the

respondent’s use of a computer for Medicare billing. We tabulated the results in a

database file, which we used to develop response counts and frequencies. We tested the

data for nonresponse bias, and found none for the characteristics we analyzed. In appendix

B we give the survey questions and results. Appendix C contains the nonresponse analysis.


When we contacted the carriers for information about the population of physicians who do

not use paperless claims, we collected summary data about their collective Medicare claims

activity. credentials, (primary-care) specialty, and group association. In addition we

interviewed by telephone a number of carrier staff who are involved in promoting paperless

claims and a number of knowledgeable observers outside the carriers. Finally, we drew

heavily on the staff at HCFA’s central and Boston regional offices for carrier reports,

HCFA policy statements. and a sense of the agency’s experience with and plans for

paperless claims.





                                              3

Some of the data we collected comes from databases maintained by HCFA and the carriers.

We did not independently veri~ the integrity of these data. The HCFA continually

monitors carrier performance and the quality of its own data center. We have no evidence

to question the essential integrity of the data.


We conducted a mail survey, so we are not able to say with certainty who responded to the

questionnaire.   We assume that, if some physicians delegated the response to an associate

or employee, the respondent spoke for the selected physician and that the survey answers

fairly represent the physician’s concerns and interest.


We completed our review in accordance with the Quality Standar& jior Inspections   issued

by the President’s Council on Integrity and Efficiency





                                            4

                                      FINDINGS


Sirty-jive percent of physicians who now submit Medicare ciairns on paper indicate a
high or moderate level of interest in using paperless claims.

A physician who indicates a high level of interest in using paperless claims is, according to

the wording of our survey question, actively pkmning to start using them. Some

respondents are involved in the transition process right now, while others indicate a fm

intention to use paperless claims by the end of the survey year (1995). One physician

included with the returned questionnaire a copy of a communication from his service

vendor discussing tests of paperless claims they carried out on the same day of the

response.


About a dozen respondents included with their answers to the survey explicit requests for

additional information about paperless claims. Even some of the physicians with moderate

interest indicated active shopping for paperless billing systems. Figure 3 gives a more

detailed picture of the levels of interest indicated by responding physicians.


                                              Figure 3
                       LEVEL OF INTEREST IN PAPERLESS CLAIMS
                              1 Percent of Physidans by Level of Interest

                        Low

                        Inwesl or

                        None





                        H~h or

                        Moderate                                         (65%)

                        Interest




                                     k% lU%   zo?i   am   a%   m%   m%    m
                       Source: OIG Mail Swvey, July-August 1995 N -294




Physicians with a high or moderate level of interest, as compared with those expressing     a
low level or no interest in paperless claims, are sign~jicantly more likely to:

 �     be younger (44.9 years of age on average v. 50.9);

The average age of physicians (medical doctors) in the US is 45 years,9 and the average
age of all 294 physicians (with any one of six professional credentials) who responded to
our survey questions is 48 years. But our sample is limited to physicians who use paper
claims. It seems intuitive that younger physicians would be more receptive to
technologically advanced practices such as use of paperless claims.

 �	    receive contacts from sales or professional relations staffs, including Medicare,
       offering a system for paperless ciaims (an average 2.83 in the past year v. 1.59).


                                                     5
It appears that physicians are not swamped with contacts offering systems for paperless
claims. In answering this question the physicians seem to have ignored mail advertising
and credited only direct contacts with the physician (as contrasted to office staff.) About
half the respondents reported no contacts; most reported 10 or fewer. Four (out of 246)       -–
reported from 20 to 30 contacts each.

Physicians who responded to our survey with a high or moderate level of interest, as
compared with those expressing a low level or no interest, were notably more likely to:

  �	   use a computer in the office (74 v. 43 percent), but the difference is not
       statistically significant for our sample size and design.

The office computer is widespread, even among physicians with little or no interest in
paperless claims. A majority of respondents, 53 percent, at all levels of interest use a
computer to prepare their Medicare claims, and 55 percent actually use the computer to
print paper claims for mailing.

  �	   be Medicare participating providers (69 v. 51 percent), but the difference is not
       statistically significant for our sample size and design.

The rate of paperless claims for participating physicians in 1994 was 74.2 percent, just
slightly more than the 72.5 percent for all claims.’ Participating physicians submitted
85 percent of all 126 million paper claims submitted by physicians on assignment in 1994,
and 72 percent of all 149 million assigned paper claims from all submitters.

Physicians with a high or moderate level of interest in using paperless claims do not dl~er
signljlcantly @om their low or no interest level peers with regard to.”

 �     Medicare as a percent of practice income;

Medicare represents 19.62 percent of practice income for the physicians with high or
moderate interest in paperless claims, and an almost identical 20.76 percent for those with
little or no interest.

 �     average number of Medicare claims;

The Medicare carriers processed an average of 47 claims in December 1994 for physicians
expressing high or moderate interest in paperless claims, compared to an average of 40 for
those \\ith low or no interest.

 �     professional   credentials;

Among physicians with a high or moderate level of interest in paperless claims. a projected
56 percent hold the degree of medical doctor, while 57 percent of those with lo~r or no
interest are so credentialed.




                                             6

  �     practice specialty.

Twenty-six percent of physicians with high or moderate interest in paperless claims have
primary care specialties,10 as compared with 15 percent of those with low or no interest.

Eighty-three percent of physicians who submit Medicare claims on paper cite three or
more concerns about using paperless c[aims.

Almost all (95 percent) of the physicians responding to our survey indicate some concern
in at least one of the areas listed on the questionnaire. And eight percent of them indicate
concerns in all six categories we presented. Figure 4 shows the depth of physician
concerns about paperless claims.     Depth of concern is not critically sensitive to the
physician’s level of interest in using paperless claims.

                                                         Figlfe4

                              DEPTH OF PHYSICIAN CONCERNS ABOUT PAPERLESS CIAIMS

                                Pefc8ntaf Physidan$with Alkist AGlwINutnberc4 @nmms

                               ‘ml G%            w
                                                         m%




                                                                            40%




                              SOUI’IX OIG Mail &ltWy, JIdy-AuIJusi1995. N -294




For those physicians with a high or moderate level of interest in paperless claims,
86 percent cite three or more concerns about using paperless claims. Among these
physicians 95 percent indicate concern in at least one area, and 6 percent in all six areas.

By comparison, for those physicians with a low or moderate interest in paperless claims,
78 percent cite three or more concerns about using paperless claims. And 95 percent of
these physicians indicate concern in at least one area while and 13 percent indicate concern
in all six areas.




                                                            7

The two concerns mentioned most often in responses to our survey, technical complexity
and cost, apply about equally often to physicians with high or moderate interest in
paperless claims and to those with low or no interest (see figure 5.) By contrast, the
former group (more interested physicians) is significantly more often concerned about
information gaps and Medicare policies and less ofien concerned about the impact of
paperless claims on their personal preferences.

                                                      Figure5
                          BRE4DTH OF PHYSICIAN CONCERNS ASOtJT PAPERLESS                 CtAlhlf
                      100%1  * ~   Percent ofPhysidamwithEach Type of Cormsrn


                                                    83
                       so%
                                                                                       Level of
                                                                                       Interest
                       00%                                                          •~


                       40%



                       20%



                       nu
                       ..i_L             ~
                                     —
                                              m-AP8”-’-?~L
                      Sourw: OIQ Mail Surfev. JUIV.AUOUSi
                                                       19S5. N Vades from227 to 2S4.




The types of concern cited by physicians are closely related to those previously recognized

by HCFA and the carriers and identified in earlier reports from the OIG. They include:


Technical Complexity.      Eighty-eight percent of the physicians note

concerns about technical matters such as customizing data systems                                  I would use it

to individual practice, obtaining compatible billing software, or                                    ~~itworked

developing the capacity to include special narratives on claims.                                       easily.

Among the physicians expressing a high or moderate level of

interest in paperless claims. 89 percent cite technical concerns, as do                            MD, New York

87 percent of those having a low interest in paperless claims.




    The expense        Costs.   Seventy-nine percent of the physicians raise concerns about
  involved is not      costs. In the great majority of cases these concerns focus on
   cost-effective      hardware or software costs. Many physicians also cite concerns
    since we do        associated with training staff to process claims by computer.
     not accept        Seventy-eight percent of physicians with high or moderate interest in
    assignment.        paperless claims raise such cost-related concerns, compared with
                       82 percent of those with low or no interest.
  DC, Minnesota




                                                         8

Information Gaps. Seventy-seven percent of the physicians point                       ~,.,:::..

to informational uncertainties associated with use of paperless             J4y o@e ~~

claims. These center around two particular matters: (1) possible           cu?npuh?+*wjs@&::.

difficulties involved in checking the status of paperless claims, and     ‘ $etw$:ti$i= ,,.,’..

(2) potential access to documentation for the paperless claim              . receiv@~.j&;.::j~

                                                                          ...
process. Eighty-three percent of the physicians in the high or             ‘. directiOti..$ .:!

moderate interest category refer to such information gaps, as

compared with 64 percent in the low interest category.                        JfD,.:K~~~;~,

                                                                                          ,..




                         Medicare Policies. Sixty-seven percent of the physicians indicate
   Medicare does         concerns about the administrative rules and regulations that govern
   make a lot of         use of paperless claims for Medicare. Many of these concerns lack
    changes in           a firm basis in Medicare policy. Physicians can mistakenly assume
    policy and           that Medicare puts limitations on use of paperless claims by certain
    procedure.           types of physician, where no limits exist. Or physicians can
                         misunderstand their capability for making edits to a paperless
  MD, Minnesota          claim. Seventy-one percent of physicians with high or moderate
                         interest mentioned policy concerns, as did 59 percent of those with
                         low or no interest.




Personal Preferences. Finally, 62 percent of the physicians note              Computers
various personal factors as inhibiting their interest in paperless         have a way of
claims. ‘They invoke factors such as their age, discomfort with the         changing the
computer, satisfaction with things as they are, difficulties with            information,
carrier and vendor staffs, or preference for different computer              somehow.
systems. Fifty-six percent of physicians expressing a high or
moderate interest in paperless claims note their personal preference         OD, Indiana
as a concern, compared with 74 percent of those expressing low
interest.




                                              9
                     RECOMMENDATIONS

Our findings reveal a considerable reservoir of interest in the possibility of switching to       ““

paperless claims among the majority of physicians who are still using paper claims. This

situation presents HCFA and the carriers a notable opportunity to foster additional

voluntary conversions to paperless claims.


To take advantage of this opportunity, however, HCFA and the carriers will need to

respond more completely to the concerns expressed by physicians who have been reluctant

to make the switch thus far. Many of their concerns, it appears, could be addressed with

clearer and more explicit explanations about the particulars and implications of paperless

claims processing systems. Such explanations may be somewhat less responsive to

concerns that center around costs, but even here, fuller information could help illustrate the

potential cost effectiveness of paperless systems—for the physician as well as for Medicare

and other payers.


We conclude that, through extended outreach, HCFA could influence many of the

physicians still filing paper claims to switch voluntarily to paperless systems. At the same

time. we recognize that not all of these physicians are likely to accept paperiess claims and

that HCFA needs to begin developing a policy framework that goes beyond expanded

outreach, as a way of preparing for the day when the internally paperless Medicare

Transaction System becomes fully operational.


In addition, we recognize that physicians will have increased incentive to switch to

paperless claims as formats for electronic billing become increasingly standardized

throughout the health care industry. A similar impact will follow from increased use of

one-stop shopping, where insurers electronically route claims to other payers, and other

techniques that serve to make the payment process more transparent to physicians.


Our two recommendations follow. The first (multi-part) recommendation focuses on

measures that HCFA can take to reach out to that substantial group of physicians who

seem reasonably open to switching to paperless claim submission for Medicare. The

second recommendation addresses those who are less open to such a conversion.


The HCFA should lead a targeted outreach effort to encourage voluntary conversion to
paperless Medicare claim fding by physicians who now submit claims on paper and who
have a moderate to high [evei of interest in making the switch.

The HCFA and the Medicare carriers, as we have noted, have already undertaken
considerable outreach efforts to encourage paperless claims processing. A second wave of
outreach, targeted to those physicians who seem most inclined to make the change, could
add significantly to prior successes. As an indication of the scope of the opportunity that
exists. we note that if the physicians who expressed a high or moderate level of interest in
using paperless claims actually made the switch:



                                             10

  �	   the Medicare administrative cost savings would be in a range between $22 million
       and $81 million annually;] 1 and

  �	   the volume of assigned paper claims Medicare receives from physicians would be
       reduced from 126 million to 45 million annually. 12

Options for implementing   this recommendation     include:

  �	   Enclose with claim payments to the targeted physicians a separate informational
       brochure on the advantages of paperless claims processing and a tear-off card that
       the physician could return to the carrier to learn more about paperless claims.

  F	   Establish a 1-800 number which physicians could call to obtain information
       concerning paperless claims and which could be presented in informational
       advertisements in professional journals and in promotional materials.

  �	   Conduct targeted mailings to Medicare participating physicians, since they are
       especially likely to be interested in using paperless claims. The mailing could
       include informational material and a tear-off ctard to return by those wishing to
       know more.

  b	   Assume that any (probably younger and more mobile) physician applying for a new
       provider number wants to use paperless claims. Furnish information and transition
       support in setting up the paperless billing system. Provide the same service to a
       physician ~vho notifies the carrier of an address change or new group affiliation.

Physicians who, through these contacts, express interested in making the switch to
paperless claims can be further persuaded by such efforts as:

  �	   Convene physicians (and/or their office representatives) in groups with their peers
       (and/or their representatives) who have already switched to paperless claims. Peers
       can convey the usefulness of paperless claims and address real concerns in the
       physician’s context in a direct way that can effectively supplement the carrier’s
       factual presentations.

 k	    Send tightl> focused informational materials to these physicians, specifically
       addressing concerns about technical complexity, costs, information gaps, and
       Medicare policies.

 �	    Propose paperless claim submission as the normal choice with each new provider
       number assignment or change.

The HCFA should begin to plan now for the policy changes that will become necessary
to achieve an almost completely paper!ess environment for processing Medicare claims.




                                             11

The HCFA also must address how in the years ahead it will approach those physicians        who
continue to have little or no interest in paperless claims. It must do so in a way that
reflects concerns not only for administrative efficiency, but also for the access to and
quality of services for Medicare beneficiaries. Here, again, to reflect the scope of the
opportunity, we note that if the physicians who express little or no interest made the
switch, then:

 �     the additional Medicare administrative cost savings would be in a range between
       $12 million and $45 million annually, for a combined savings range betsveen $34
       million and $126 million annually;13 and

 �     paper claims volume would fall to zero.

Among the policy options available to HCFA in addressing those physicians who have not
converted voluntarily to paperless claims are the following:

 F	    Target a date when all paperless claims submission will become a condition for
       Medicare participating physician status. Carrier representatives indicated that
       contractual requirements to use payers’ paperless claim systems are becoming more
       common in managed care settings, even for affiliation of an independent physician
       office with a payer in a prefemed provider arrangement.

 �	    Target a somewhat later date when all physicians will be mandated to submit
       paperless claims. A 1994 amendment to the New York State public health law
       requires use of electronic (paperless) claims by physicians, but has yet to be
       implemented.

 F	    Continue to accept paper claims directly into Medicare, but impose a filing fee to
       cover the incremental cost of doing so.




                                             12

                     AGENCY                 COMMENTS

We sought comments on the draft report from HCFA. The HCFA concurred with both of
our recommendations. We include the full text of HCFA’s comments as appendix D.

In comments on our first recommendation, that it lead a targeted outreach effort to
encourage voluntary conversion to electronic billing, HCFA noted that it offers positive
incentives such as faster payments and free software. It has created a national standard
enrollment form, and proactively participates in groups developing industry-wide standards.
It also described ongoing efforts to streamline coding and data collection.

In comments on our second recommendation, that it plan now for policy changes necessary
in a paperless environment,’ HCFA stated that it will look to create incentives for providers
to abandon paper claims whenever possible.

We appreciate HCFA’s concurrence with our recommendations        and its continuing
initiatives to achieve the benefits of paperless claims.




                                             13

                              APPENDIX                    A

            SAMPLING             AND ANALYSIS METHODS

SAMPLING

We used a two-stage cluster, sample to draw the sample of physicians for our mail survey.

In the first stage we selected 8 of the 29 geographic carriers that process claims for

Medicare using simple random sampling. Since we were interested in physician use of

paperless claims, we ignored the specialized carriers such as those which process cIaims for

durable medical equipment. And since most physicians who bill the Railroad carrier also

bill the geographic carriers, we ignored the Railroad carrier also.


In the second stage we obtained from each of the 8 selected carriers the number of

physician providers in their files not authorized to submit paperless claims to Medicare.

We then selected 100 random numbers for each carrier, and requested the carrier to send us

identifying and claims information for the provider corresponding to each random

selection.


It was our intent, in this way, to have a sample of 800 physicians for the mail survey. We

based the mail survey sample size of 800 physicians upon an anticipated 25 percent

response rate experienced in earlier physician surveys. When we reviewed the information

fhrnished by the 8 carriers, we noted that a majority of the provider numbers we originally

selected were not used--no claims were processed during the time sampled.


Accordingly, to have approximately 800 mailings and expect about 200 responses, we

inflated the sample by keeping the original 100 random numbers and generating the

appropriate number of random spares. After we struck out the unused provider numbers,

we were left with approximately 100 selected physician providers per carrier,


Some of the selections were numbers for billing groups, and we wanted to survey

physicians. We asked the carriers to select at random one physician member of each such

group, and used that person as the addressee on our mailing. In addition, we struck out of

the selection multiple provider numbers corresponding to multiple practice locations or

multiple members of a group practice.


As indicated here, we selected the sample from a population of billing numbers that is not

in strict one-to-one correspondence with the population of physicians. Because we

eliminated duplicates and inactive provider numbers, we believe the physician responses

accurately reflect the concerns and interests of the physician population that continues to

submit claims to Medicare on paper.





                                           A-1

ANALYSIS

We coded the answers to the closed-end questions in the survey questionnaire for the 366
responses we received to the 779 surveys we mailed-a     gross response rate of 47 percent.
However, 54 respondents answered the first screening question in the affirmative, thereby
indicating that they do now use paperless claims for Medicare and hence are ineligible
respondents in a survey of physicians who still use paper.

For the 312 eligible respondents we used standard computer programs to develop
frequencies and percentages for their answers to the closed-end questions. Since ours was
a two-stage cluster sample, we used standard statistical formulas to take the sample
selection process into account in calculating results. Generally, the correction for the two-
stage sample selection amounts to one or two percentage points.

For certain analyses it was appropriate to compare the set of answers to one question in the
survey with those for a second question, or with some information provided by the carrier.
Among the categories of information we looked at were age, group association, Medicare
participating physician status, and number of claims processed. In the instance of a
categorical variable (Medicare participation, for example), we used the chi-square test of
statistics and assessed its significance at the 95 percent level of confidence. For continuous
variables (age), we used the z test statistic, again assessing significance at the 95 percent
Ievel of confidence.

In order to expedite issuance of the draft report, we included only preliminary estimates of
the percentages for survey responses. For example, with regard to Question 10 in the
survey (the answers for which form the basis for the first finding):

       294 physicians answered this question;

        55 of the 294 indicated high interest in paperless claims (19%); and

       132 of the 294 indicated moderate interest in paperless claims (45’-!4o).

       The simple percentage of respondents with high or moderate interest in paperless
       claims is 64°/0.

Because we selected a two-stage cluster sample, we corrected this simple percentage in
order to project the survey result to the entire population of physicians who submit paper
claims to Medicare.

We estimated responses and comparisons using the Survey Data Analysis (SUDAAN)
software package for multi-stage sample designs. In the body of this final report, we give
percentages corrected for the sample size and design. Appendix B, however, gives the
actual response numbers and uncorrected percentages.




                                           A-2

                                   APPENDIX                         B

               SURVEY QUESTIONS                              AND ANSWERS
We give here the frequencies and distributions of the answers to the closed ended questions
in our mail survey. Questions 2F2, 3E2, 4E2, 5D2, 6D2, 7, 8F2, 9, and 11H2 invited open
ended comments. All the percentages in appendix B refer to the raw dat~ and are not
corrected for sample size or design.

QUESTION1 SCREENING:              Please tell us whether you now use paperless   claims for Medicare.

  TOTAL ANSWERS= 366

  YES (Y) =54 NO(N) =312

  YES(Y) =15% NO(N) =85%


QUESTION2 CONCERNS:	              We ‘ve listed below a number of concerns that physiciam express about
                                  using paperless claims. Please indicate the degree to which you share
                                  each of them.

QUESTION2A: Concernabout the cost of paperlessclaims.


 TOTALANSWERS = 295

 MAJOR(J) = 146 MINOR(R) = 94 NOT A CONCERN(?’J)= 55

 MAJOR(J) = 0970 MINOR(R) = 32% NOT A CONCERN(N) = 19%


QUESTION2B: Concernabout technicalcomplexitiesassociatedwith convertingto paperlessclaims.


TOTAL ANSWERS= 294

MAJOR(J) = 162 MINOR(R) =94 NOT A CONCERN(N) = 38

MAJOR(J) = 55% MmOR (R) = 32’%0NOT A CONCERN (N) = 13%


QUESTION 2C: Concern about certain Medicare policies associated with use of paperless claims.


TOTAL ANSWERS = 291

MAJOR (J) = 71 MINOR (R) = 131 NOT A CONCERN (N) = 89

MAJOR (J) = 24% MINOR (R) = 45% NOT A CONCERN (N) = 31%


QUESTION 2D: Concern about getting sufficient information relating to use of paperless claims.


TOTAL ANSWERS = 291

MAJOR (J) = 99 MINOR (R) = 120 NOT A CONCERN (N) = 72

MAJOR (J) = 34% MINOR (R) = 41% NOT A CONCERN (N) = 25%


QUESTION 2E:             Concern about paperless claims just not fitting in with my personal preference.


TOTAL ANSWERS = 293

MAJOR (J) = 81 MINOR (R) = 88 NOT A CONCERN (N) = 124

MAJOR (J) = 28°A MINOR (R) = 30% NOT A CONCERN (N) = 42%





                                                  B-1

 QUESTION 2F1 :         Concern about something else.

 TOTAL ANSWERS= 115

 MAJOR(J) =66 MINOR (R) = 6 NOT A CONCERN(N)= 43

 MAJOR(J) = 57% MINOR (R) = 5’%0NOT A CONCERN(N) = 37%


QUESTION3 COST CONCERNS:                   P[ease indicate with a X or check mark which are concerns.

[For Questions 3 through 6 an answer coded “Yes” means the respondent marked the box labeled         “Concern”
and “No” means the box labeled “Not A Concern” was marked.]

QUESTION3A:             Cost of”hardware,sotiare, or phone tolls.

 TOTAL ANSWERS = 296

 YES (Y) = 244 NO (N) = 52

 YES(Y) =82’XO NO(N)= 18%


QUESTION 3B:            Cash flow during the transition to paperless claims.


 TOTAL ANSWERS = 290

 YES (Y) = 106 NO (N) = 184

 YES(Y) =37%   NO@J) =63%


QUESTION 3C:            Cost of training and retraining staff.


 TOTAL ANSWERS = 292

 YES (Y)= 170 NO(N)= 122

 YES(Y) =58%  NO(N) =42%


QUESTION 3D:            Lack of opportunity
 to pool costs with other physicians.

 TOTAL ANSWERS = 281

 YES (Y) = 107 NO (N) = 174

 YES (Y) = 38 ?40 NO (N) = 62 ‘%0


QUESTION 3E 1:          Something else.


 TOTAL ANSWERS = 38

 YES (Y) = 19   NO(N)= 19

 YES (Y) = 50 VO NO (N) = 50 ‘%0


QUESTION 4 TECHNICAL CONCERNS:

QUESTION 4A:            Incompatibility with other billing software or general office operations.


 TOTAL ANSWERS = 281

 YES(Y)= 174 NO(N)= 107

 YES (Y) = 62 Yo NO (N) = 38 ‘?”0


QUESTION 4B:            Limited ability to handle special narratives.


 TOTAL ANSWERS = 276

 YES (Y) = 124 NO (N) = 152

 YES (Y) = 45 ?40 NO (N) = 55 ‘Yo



                                                   B-2
 QUESTION 4C:        Threats to privacy or integrity of data.


 TOTAL ANSWERS = 277

 YES (Y) = 72 NO (N) = 205

 YES(Y) =26%   NO(N) =74%


QUESTION 4D:         Difficulty customizing data systems to individual practice.


 TOTAL ANSWERS = 284

 YES(Y)= 184 NO(N)= 100

 YES(Y) =65%  NO(N) =35%


QUESTION 4E1 :       Something else.


 TOTAL ANSWERS = 34

 YES (Y) = 14 NO (N) =20

 YES(Y) =41%   NO(N) =59%


QUESTION 5 POLICY CONCERNS:


QUESTION 5A:         Prohibition of reassignment.


 TOTAL ANSWERS = 250

 YES (Y) = 90 NO (N) = 160

 YES(Y) =36%   NO(N) =64%


QUESTION 5B:         Tie-in between paperless claims and Direct Deposit of Medicare payment.


 TOTAL ANSWERS = 266

 YES (Y) = 106 NO (N) = 160

 YES(Y) =40%   NO(N) =60%


QUESTION 5C:         Possibility of tiling fees for Medicare claims.


 TOTAL ANSWERS = 274

 YES (Y) = 173 NO(N)= 101

YES(Y) =63%    NO(N) =37%

QUESTION 5D1 :     Something else.


 TOTAL ANSWERS = 25

 YES (Y) = 7   NO(N)= IS

 YES (Y) = 28 % NO (N) = 72 YO



QUESTION 6 INFORMATION CONCERNS


QUESTION 6A:         Difficulty checking status of a paperless claim.


 TOTAL ANSWERS = 282

 YES (Y) = 172 NO (N) = 110

 YES(Y) =61%   NO(N) =39%





                                               B-3

 QUESTION 6B:            Quality of Medicare carrier efforts to publicize paperless claims.


 TOTAL ANSWERS = 268

 YES (Y) = 96 NO (N) = 172

 YES(Y) =36%   NO(N) =64%


 QUESTION 6C:            Accessible documentation for the paperless claim process.


 TOTAL ANSWERS = 275

 YES (Y) = 167 NO (N) = 108

 YES(Y) =61%   NO(N) =39%


QUESTION 6D1 :           Something else.


 TOTAL ANSWERS = 24

 YES (Y) = 8   NO(N)=   16

 YES (Y) = 33 % NO (N) = 67 %


QUESTION 8 ADDRESSING CONCERNS:	                   Please indicate wilh an X or check mark any concerns
                                                   Medicare could effectively address, and by doing so
                                                   might help you start using paperless claims.

[An answer coded “Yes” means the respondent   indicated that type of concern, a “No Answer” means no mark
was made.]

QUESTION 8A:	           COST--Provide financial incentives, such as higher payment for paperless claims or
                        waiver of fees.

 TOTAL RESPONSES = 312

 YES (Y) = 199 NO ANSWER (Z) = 113

 YES (Y) = 64 ?40 NO ANSWER (Z) = 36 %


QUESTION 8B:	           TECHNICAL COMPLEXITY--Simpl ify the electronic billing process, such as
                        developing wider coordination of benefits or more user-friendly interfaces.

 TOTAL RESPONSES = 312

 YES(Y)= 181 NO ANSWER (Z) = 131

 YES (Y) = 58 ?4. NO ANSWER (Z) = 42 %


QUESTION 8C:	           MEDICARE POLICIES--Change Medicare policies, such as eliminating the 90-
                        percent rule or ensuring tighter data security.

 TOTAL RESPONSES = 312

 YES (Y) = 94    NO ANSWER (Z) = 218

 YES (Y) = 30 ?40 NO ANSWER (Z) = 70 %


QUESTION 8D:	           INSUFFICIENT INFORMATION--Open access, such as making available online
                        checking of claim status. or a phone-in information line.

 TOTAL RESPONSES = 312

 YES (Y) = 158 NO ANSWER (Z) = 154

 YES (Y) = 51 ‘?4. NO ANSWER (Z) = 49 %





                                                  B-4

QUESTION SE:          PERSONAL FACTORS--Demonstrate that paperless claims can benefit me.

 TOTAL RESPONSES = 312

 YES (Y) = 156 NO ANSWER (Z) = 156

 YES (Y) = 50 YO NO ANSWER (Z) = 50 %�

QUESTION 8F1 :        SOMETHING ELSE---

 TOTAL RESPONSES = 312

 YES (Y) =25    NO ANSWER (Z) = 287

 YES (Y) = 8 %’o NO ANSWER (Z) = 92 ~0


QUESTION 10 INTEREST:	        PIease indicate your overall level of interest in using paperless   claims for
                              Medicare.

TOTAL ANSWERS = 294

HIGH (H) =55  MODERATE (M) = 132 LOW (L) =68   NONE (N)= 39

HIGH (H) = 19% MODERATE (M) = 45% LOW (L) = 23% NONE (N) = 13%


QUESTION 11 ABOUT YOUR OFFICE:	                 Please answer some questions about your Medicare
                                                billing.

QUESTION 11A:        Do you use a computer in your office?


 TOTAL ANSWERS = 303

 YES (Y)= 195 NO (N) = 108

 YES (Y) = 64 % NO (N) = 36 ‘?ko


QUESTION 11B:        Do you use a computer to prepare Medicare claims?


TOTAL ANSWERS = 303

YES (Y)= 162 NO (N) = 141

YES (Y) = 53 “/o NO (N) = 47 %


QUESTION 11C:	       Do you use a computer to print paper claims to be mailed in to the Medicare
                     carrier?

TOTAL ANSWERS = 301

YES (Y) = 165 NO(N)= 136

YES(Y) =55%   NO(N) =45%


QUESTION 11D:        Does your office bill directly, or do you use a billing service?


TOTAL ANSWERS = 290

OFFICE (0) = 275 SERVICE (S) = 15

OFFICE (0) = 95 % SERVICE (S) = 5 Y.�

QUESTION I lE:       Do you use paperless claims for any payer?


TOTAL ANSWERS = 299

YES (Y) = 17 NO (N) = 282

YES(Y) =6Y0 NO(N) =94%





                                               B-5

QUESTION 11F:         Roughly what percent of your practice’s income is attributable to Medicare?

NUMBER OF ANSWERS = 259
                                                                                                    —.
HIGH = 90 % LOW = O “k

AVERAGE (MEAN) = 20.98 %           STANDARD DEVIATION = 19.75 %


QUESTION 1IG:	       Including Medicare, approximately how many contacts have you had in the past
                     year, offering a system for paperless claims?

NUMBER OF ANSWERS = 252

HIGH = 30  LOW = O
AVERAGE (MEAN) = 2.33           STANDARD DEVIATION = 3.27

QUESTION 11HI :	     Do these contacts serve to increase your concern about paperless billing for
                     Medicare?

TOTAL ANSWERS = 217

YES (Y) =65     NO(N)= 152

YES (Y) = 30 ~,  NO (N) = 70’70





                                              B-6
                                          APPENDIX                     C

                            NONRESPONSE                          ANALYSIS
In a survey based on a random sample we need to consider the possibility that bias may be introduced
through self-selection by the respondents. To determine whether significant differences exist in this survey
we compared the two groups, respondents and nonrespondents, by age, group association, Medicare
participation, number of Medicare claims, and amount allowed by Medicare.

Analysis by Age

The average age for the 366 physicians who responded to the survey is 47.7 years. We calculated age on
July 1, 1995 by subtracting the date of birth given in carrier records. For the “age” of a group practice, we
substituted the date of birth of one physician member selected at random by the carrier. We use the age of
the subject physician for analysis, although we recognize that the survey may have been completed by an
associate or employee.

By comparison, the average age for414 nonrespondent physicians is 48.5 years. For the nonrespondent
analyses we count as respondents the 54 physicians who answered the first screening question in the
affirmative. These physicians responded substantively to the survey, although they excluded themselves from
additional analyses by identi~ing themselves as ineligibles--they do use paperless claims now.

We tested the significance of the age difference between respondents and nonrespondents by applying the
standard z-test procedure to the data. The calculated z value is 0.969, which is not statistically significant at
the 95 percent confidence level. We conclude that there is no difference between respondents and
nonrespondents by age at the 95 percent confidence level.

Analysis by Group Association

We define group association as it is coded in carrier records, which they maintain for Uniform Provider
Identification Number (UPIN) purposes. The percentages of respondents and nonrespondents by group
affiliation are:


                                COMPARISON          BY GROUP ASSOCIATION

                  ~SPONDENTS                    NON-                                          PERCENT
                                                                            TOTAL
                      (Note)                RESPONDENTS                                      RESPONDING

                Number       Percent       Number      Percent      Number       Percent

   GROUP           143        39 %          146         35 %          289         37   ?40        49   Yo



   NON-           222         61    ‘%0     267         65 %          489         63 %            45 %
   GROUP

   TOTAL          365        I 00   ‘MO     413         1009’0        778        100 %            47 %

   Note:   One respondent physician was not coded for group association in data supplied by the carrier.

We used the chi-square test to look for a difference between respondents and nonrespondents by group
association. The computed chi-square value of 1.22 is not statistically significant at the 95 percent confidence
level. We conclude that there is no difference between respondents and nonrespondents by group association
at the 95 percent confidence level.


                                                      c-1
Analysis by Medicare    Participation

We use the Medicare participation indicator coded in carrier records, which they maintain for Uniform
Provider Identification Number (UPIN) purposes. The percentages of respondents and nonrespondents by
Medicare participating status is:


                             COMPARISON BY MEDICARE PARTICIPATION

                    RESPONDENTS                  NON-                                            PERCENT
                                                                                TOTAL
                                             RESPONDENTS                                       RESPONDING

                  Number         Percent    Number         Percent       Number     Percent

   PARTICI-           244        67   ~,     257           62    ~,       501       64 %           49   ‘%0
   PATING
  NOT                 122        33 %        156           38    ‘Y.      278       36   ~0        44   ‘%0
  PARTICI-
  PATING

  TOTAL               366        100 ‘?/0    413           100    ‘?40    779       100 ‘?40       47   Y.



We used the chi-square test to look for a difference between respondents and nonrespondents by Medicare
participation. The computed chi-square value of 1.67 is not statistically significant at the 95 percent
confidence level. We conclude that there is no difference between respondents and nonrespondents by
Medicare participating physician status at the 95 percent confidence level.

Analysis by Number of Medicare Claims

We asked the carriers to include among the data they supplied for each of the sample physicians the number
of Medicare claims processed during December 1994, as one measure of that provider’s level of Medicare
activity. The average number of claims for physicians who responded to the survey is 53, and the average
for nonrespondents is 45.

We tested the significance of the difference in numbers of claims between respondents and nonrespondents by
applying the standard z-test procedure to the data. The calculated z value is 1.324, which is not statistically
significant at the 95 percent confidence level. We conclude that there is no difference between respondents
and nonrespondents by Medicare activity, as measured by number of claims, at the 95 percent confidence
level.

Analysis by Amounts    Allowed

We also asked the carriers to include among the data they supplied for each of the sample physicians the total
amount allowed for Medicare claims processed during December 1994, as one measure of that provider’s
level of Medicare activity. The average amount allowed for physicians who responded to the survey is
$3535 and the average for nonrespondents is $2908.

We tested the significance of the difference in allowed amounts between respondents and nonrespondents by
applying the standard z-test procedure to the data. The calculated z value is 1.230, which is not statistically
significant at the 95 percent confidence level. We conclude that there is no difference between respondents
and nonrespondents by Medicare activity, as measured amount allowed, at the 95 percent confidence level.




                                                     c-2
          APPENDIX      D




AGENCY COMMENTS   ON THE DRAFT REPORT




                  D-1
               * sdml
        /’                                                                                          Health   Cars Fmanche Administration
<a

�
    t
    *
        -.
                $
             ‘** *
                7
                                DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                                    The Admhristratur
                                                                                                    Washington,  O.C.    20201




                        DATE:
                                        MAU15M?6

                        TO:            June Gibbs Brown
              ..-.                     Inspector General

                        FROM:          %uce C. Vladeck
                                       Administrator

                        SUBJECT       OffIce of Jnspector (3encrd   Draft Repo@ “Encoura@g    Physicians to        Usc
                                       Paperless Claims,” (OE?-01-94-00230)

                        Wc reviewed the above-referenced     repolt on encoum@/1 phy;icim  to usc paperless
                        chins   for filing Medicare reimbursement forms. AUached are our cormnents on the
                        report rcconmmdation.

                     Thank you     for the oppoti~    to review and comment on this draft report,

                     Attachrncnt
                 -ents      of the Health Care Financ~titi~
                           on Office of Insuedor Generd (OIG)
                D@ ReIIorc “Encoura!dmrP hysichns to Use PauerIess      CIaims.”
                                       (OEI -01-94-00230)



   91G Rccommcndation 1

   HCFA should lead a targetedoutreach effort to encourage vcduntary conversion to
 ‘ paperlessMcdieare claim filing by physicia who now submit claims on paper and who         ....
   have a moderate to high level of interest in making the switoh

   I-lCFA I@suonse

   We concur. HCFA continues to lead the health care industry in promoting the switch to
   electronic claims through many avenues, inciutig some of the methods recommended in
  the IeporL       .
                                                                  .
  We have offered positive incentives to elcctronic billers inchdng fmter payments, fice
  billing and remitta.nce-edtice-reccitig SOMWC,eIeefronic chdrns status chec~
  electronic eligibility inquiry and response, and national standard e~ectronicremittance
  advice with which a provider may automate in-house posting. We have also created a
  nationally standardized Medicare ekcvonic dats interchmge enroUmcnt form for
 providers which rcpiaces the many contracts formerly required for the separate camiers.
 Six times annuaily, we attendthe Anericm Nafiond st~du~ Institute meetings to work
 with and influence payers, providers,insunmce companies, and other hetdth care entities
 in developing industry-wide standards. In addition, we are pro-active participants in the
 National Uniform ChimsCommhee,           theNational UniformEMng Committee,andthe
 XJZNInsuranceSubcotitiec.        J~cme ako studytilg
                                                    dlefeasibilityandcost
effectiwwss of other outreach opporttities available to us so that we may continue to
lead in outreach effofis~ We would l~e tO PO~~ ouc howevu,thattherepom
rccornmendatiom presume a fully funded atishative      and contractor budget and that
with reduced budgets there will be some tradeoflk.

 Many of the physicians sumeyed wow Bbout fio~tion          gaps and the inabiIity of
 electronic ciairns to capture case specific doc~entation which periodically accompanies
a paper claim To reduce the need forextia      documntatiowHCFA has begun to create a
~cw series of codes andur specific fields w tie papcriess  claims that describes: patient
information that cumendy cm.not be communicated in the iCD-9 codes; item/semice
lnforma[ion required by the cstier; and administrative information (such as the date ofa
specificprocedure). TheseCodes
                             WIII
                               be effectivein 1997. WehaveEISO
                                                             formeda
workgroup   lo develop methods to de~re~se r~e amount of unsolicited documentation that



                                                D-3

�



                       Piigc   2

                        accompanies ciairns. We hope physicians m be encouraged by these technical
                       improvemcnta whi~ wiii make paperlessciahnsmoreefficient and cam speeific.
                       physiciansare also reluctant to adopt a co-d         atiosph=e due to the costs
                       incurred in-g       persormcl and in O-         comp~ble cxfid        software. We
                       believe thatwith increased participation in cl*onic  billing software packages will
                       become
                            mommdily avaikbkandlCSS
                                                  expcnsivtiWCariticiptat$ thc switchwpqwrkss
                       ckdms wiil require initiaI training; however, the time and rxorq sawd in the long term
    . ..               ~ compematc for the initial outlay.                  ..  .. -----       ------- -“.
                   OIG Recommendation 2

                  HCFA should begin to plan now for the poiicYchanges that will become necessary to
                  achieve an rtlmost complciely paperless environment for processing Medicare ciaims.


                 HCFA Resuonse

                WC COnCur. HCFA is preparing for the necess~policy ch~ges through many of the
                ways recomsncnded by the OIG. We plan on mgcbg a date to move to e~ecrronicbilling
                andwilllookto mate incentives
                                            forpmtiders~0abandonpaperchimswherever
               possibIc.

              /additional Co=                    en~                                           .

            As in the Medicare program here is much ~tcrcst k tie use of electronic means to
            exchange data and transmit claims in the Medicaid pro-.         HCFA’SMedicaid Bureau
            (,YIB)rc~cn[ly conduc[cd a SMYCY   of the E!eCRO~CData Interchange (EDI) capabilities
           ana the electronic media claims actlti~ies fcr each State Medicaid agency. They are in
           the process of putting together a rcpofi of ~le~ f~d~gs that till be available to interested
           parries. llc results will be bcncfici~j tObo~ tie public Md private sectors as a guide in
           detenn.iring comparability mo~g ~fedic~id ~ge~cies dealing with ED1activities. We
           wiilbe giad to provide the OIG ~~iti a COPYof the @OII or answer any questions
           conc~.tig               this   s~~t




                                                               D-4

                            APPENDIX                     E

                                   ENDNOTES

1.   The statutory basis for Medicare is contained in Title XVIII of the Social Security
     Act, as amended, 42 U.S.C. 1395ff. For a popular summary of Medicare see Your
     Medicare Handbook 1995, Publication No. 10050, U.S. Department of Health and
     Human Services, Health Care Financing Administration, Baltimore, MD.

2.   U.S. Department of Health and Human Services, Health Care Financing
     Administration, private communication from Office of Financial and Human
     Resources. See also Social Security Administration, Social Seczmi~ Bulle/in,
     Annual Statistical Supplement 1995, Tables 8.B4 and 8.B5, pages 327 and 328.

3.   U.S. Department of Health and Human Services, Health Care Financing
     Administration, private communication from Office of Financial and Human
     Resources. See also U.S. Department of Health and Human Services, Health Care
     Financing Administration, Strategic Plan for Information Resources Management
     (FY 1996–2000),    Chapter H, Section B. “Strategic Planning Assumptions,” page 7.

4.   For an indication of current trends see, for example, the agenda for the Automated
,    Medical Payments Conference VI, held in Boston, MA, May 11-12, 1995.

5.   Workgroup   for Electronic Data Interchange, Report, Washington    DC, October 1993.

6.   U.S. Department of Health and Human Services, Health Care Financing
     Administration, Memorandum dated November 16, 1992 from Director, Bureau of
     Program Operations to All Regional Administrators, “Electronic Media Claims
     (EMC) Goals for Fiscal Year 1993;” and Memorandum dated November 4, 1993,
     “Electronic Media Claims (EMC) Goals for Fiscal Year 1994.”

7.   Based on Carrier Monthly Workload Reports, Form HCFA-1 565.

8.   Mary E. Warren et al., “Medicare Transaction System: Platform for Change,”
     Health Care Financing Review 16 (Winter 1994) 2:191-200.     For a popular
     summary see Spencer Rich, “Medicare Billing to Join Electronic Superhighway
     One National System to Handle All Payments,” The Washington Post, January 24,
     1994.

9.   American Medical Association,    personal communication.

10   We took general practice, family practice, internal medicine, pediatrics, and
     obstetrics/gynecology as the primary care specialties. This classification follows




                                          E-1

            that used by Medicare   for incentive payments to physicians   in Health Professional
            Shortage Areas.

   11.	     We used a range of estimates for the savings to the payer (Medicare) for each claim
            switched from paper to paperless. The range of estimates comes from the following
            sources:

                   The Workgroup on Electronic Data Interchange (Endnote 5, 1993) estimated
                   that savings to the payer would range from approximately $0.50 to $1.50.

                  The HCFA’S own operating assumption, based on their informal canvas of
                  carriers in 1989, that savings would approximate $0.50.

                  Another OIG report, Review of Medicare Providers and Electronic Claims
                  Processing, (A-05 -94-OO039), found an analysis prepared by one Medicare
                  contractor which indicated savings of $0.27 per Part B claim.

           Based on the estimates cited above, we believe that it is reasonable to expect
           savings in the range of $0.27 to $1.00 per part B claim.

          According to reports submitted by the carriers to HCFA, approximately 126 million
          assigned physician claims were submitted on paper and processed during calendar
          year 1994. Based on the findings of our survey, about 65 percent of these, or 81
          million claims. were submitted by physicians with a high or moderate interest in
          using paperless claims. Applying the $0.27 to $1.00 per claim unit savings figures
          described above, we estimated a potential savings of $22 million to $81 miilion.

          In making these estimates, we assumed that physicians with high or moderate
          interest in using paperless ciaims submit, on average, the same number of claims as
          those with low or no interest. In our sample, the former submitted an average 48
          claims in December 1994. and the later averaged 35. If we took this assumption
          into account, our estimates would be made larger.

          On the other hand, we also assumed that we could ignore the submission of paper
          claims by physicians already authorized to submit paperless claims. If we took this
          assumption into account. our estimates would be made smaller. On balance. we
          assume that these two simplifying assumptions approximately offset each other.


1~.	      In 1994 physicians submitted 126 million assigned Medicare claims on paper.
          Applying the survey result that 65 percent of physicians have high or moderate
          interest in switching:

          0.65 x 126 million = 81 million claims would be switched from paper to paperless.
          or 126 - 81 = 45 million claims would remain as paper submissions.




                                              E-2

       As before, we assume equal average claims volumes for both classes of physician
       interest, and ignore paper claims coming from physicians already authorized
       paperless billing.

13.	   We found that 35 percent of the physicians in our     survey indicated low or no
       interest in using paperless claims. Using the same     assumptions as before, we
       applied this percentage to the 126 million assigned    physician claims processed by
       the carriers during calendar year 1994. We expect      that these physicians submitted
       45 million paper claims in that year.

       With unit savings figures of $0.27 to $1.00, we estimated potential savings of
       $12 million to $45 million, if all the physicians who indicated low or no interest in
       paperless claims made the switch.

       By adding these estimates to those for the physicians with high or moderate interest
       in using paperless claims, we derived a range of combined savings estimates of $34
       million to $126 million.

       In the contemporaneous OIG report, the two unit savings figures were applied to a
       hard copy (paper) claims volume of 134.6 million estimated for providers who
       submitted 50 or more claims per month. The range of combined savings estimates
       derived in this way would be between $36.3 million and $134.6 million.




                                           E-3

